Report No. D-2009-061          March 12, 2009




  Controls Over Reporting Transportation Costs
     in Support of the Global War on Terror
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ARCENT                        U.S. Army Central
DFAS                          Defense Finance and Accounting Service
DLA                           Defense Logistics Agency
GWOT                          Global War on Terror
OMA                           Operation and Maintenance, Army
U.S.C.                        United States Code
USD(C)/DoD CFO                Under Secretary of Defense (Comptroller)/DoD Chief
                               Financial Officer
USTRANSCOM                    U.S. Transportation Command
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704

                                                                            March 12, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)lDOD CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               COMMANDER, U.S. TRANSPORTATION COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, U.S. ARMY AUDIT AGENCY

SUBJECT: Controls Over Reporting Transportation Costs in Support of the Global War
         on Te!Tor (Report No. D-2009-061)


We are providing this report for review and comment. We considered comments from
the Administrative Assistant to the Secretary of the Army; Commander, U.S. Army
Central; and Director, Management and Control, Almy Budget Office when preparing the
final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from the Administrative Assistant to the Secretary of the Army and the Army
Budget Office were responsive. However, the comments from the Commander, U.S.
Almy Central were not responsive. Therefore, we request additional comments fi'om the
Commander, U.S. Army Central on Recommendation 2. by April 13, 2009.

Please provide comments that confOim to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
AUDDBO@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place of the actual signature. If you alTange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 664-5868). If you desire, we will provide a fOimal briefing on the
results.



                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations
                    Report No. D-2009-061 (Project No. D2008-D000FI-0083.000)
                                         March 12, 2009

               Results in Brief: Controls Over Reporting
               Transportation Costs in Support of the
               Global War on Terror

What We Did                                             Financial Officer and Congress an accurate
We evaluated the effectiveness of controls over         report of the appropriated funds used for GWOT
reporting transportation costs related to the           transportation services.
Global War on Terror (GWOT). Specifically,
we reviewed the Army’s process for recording,           What We Recommend
classifying, and reporting FY 2007 obligations          We recommend that the Executive Director,
for transportation services included in the             Army Resources and Programs Agency:
Supplement and Cost of War Execution Report                 • develop procedures for computing
(Cost of War report). The audit focused on the                  funding for unbilled shipments,
transportation obligations reported by Operating            • report a potential Antideficiency Act
Agency 22 (part of the Army Resources and                       violation, and
Programs Agency, in the Office of the                       • implement procedures to identify
Administrative Assistant to the Secretary of the                funding shortfalls and process requests
Army); U.S. Army Central; and the Army                          to reprogram funds in a timely manner.
Budget Office. In total, they reported $5 billion       We recommend that the Commander, U.S.
of the $5.2 billion in GWOT transportation              Army Central develop and implement standard
obligations that the Army incurred in FY 2007.          operating procedures for computing and
                                                        recording estimated obligation amounts. We
What We Found                                           recommend that the Director, Army Budget
Army organizations did not accurately record            Office require the Military Pay Division to use
and report FY 2007 transportation costs incurred        the same accounting crosswalk developed by the
in support of GWOT. Specifically,                       Budget Integration and Evaluation Division to
    • Operating Agency 22 exceeded its                  validate and report transportation cost data for
       FY 2007 Operation and Maintenance,               the Cost of War report.
       Army appropriation funding by
       $100.7 million, potentially violating            Management Comments and
       section 1517(a)(2), title 31, United
       States Code (Antideficiency Act); and
                                                        Our Response
    • the Army’s Cost of War report                     The Administrative Assistant to the Secretary of
       understated obligations incurred for             the Army and the Director, Management and
       transportation services by about                 Control, Army Budget Office agreed with the
       $147.5 million and included about                recommendations. The Commander, U.S. Army
       $1.1 billion of transportation in the            Central disagreed with Recommendation 2. The
       wrong Cost Breakdown Structure                   full text of these comments appears in the
       Subcategory.                                     Management Comments section of the report.
                                                        We request additional comments from the
As a result, the Army did not provide the Under         Commander, U.S. Army Central. Please see the
Secretary of Defense (Comptroller)/DoD Chief            recommendations table on the back of this page.
                                                    i
               Report No. D-2009-061 (Project No. D2008-D000FI-0083.000)
                                    March 12, 2009

Recommendations Table
                                Recommendations            No Additional Comments
Entity                          Requiring Comment          Required
Executive Director, Army                                   1.a., 1.b., and 1.c.
Resources and Programs Agency
Commander, U.S. Army Central    2.

Director, Army Budget Office                               3.


Please provide comments by April 13, 2009.




                                             ii
Table of Contents

Results in Brief                                                 i

Introduction                                                     1

       Objective                                                1
       Background                                               1
       Review of Internal Controls                              5

Finding. Recording Transportation Obligations                    7

       Recommendations, Management Comments, and Our Response   14


Appendices

       A. Scope and Methodology                                 19
       B. Prior Coverage                                        21
       C. Cost Breakdown Structure                              23

Management Comments

       Department of the Army                                   25
Introduction
Objective
The objective of this audit was to evaluate the effectiveness of controls over reporting
transportation costs related to the Global War on Terror. Specifically, we reviewed the
Army’s process for recording, classifying, and reporting FY 2007 obligations for
transportation services included in the “Supplemental and Cost of War Execution Report”
(Cost of War report). See Appendix A for a discussion of the scope and methodology
and a review of internal controls. See Appendix B for prior coverage related to the
objective.

Background
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in Iraq, Afghanistan, and the United States. Operation
Iraqi Freedom and Operation Enduring Freedom are military operations related to Iraq
and Afghanistan, respectively. Operation Noble Eagle is the effort to defend the United
States from further terrorist attacks. These and other operations worldwide are
collectively referred to as the Global War on Terror (GWOT). The Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer (USD[C]/DoD CFO) considers
GWOT a contingency operation.

GWOT transportation support consists mainly of:

    •   moving cargo and personnel of tactical units deploying and redeploying in
        support of Operation Iraqi Freedom and Operation Enduring Freedom;
    •   shipping supplies and equipment, including subsistence and supplies managed by
        the Defense Logistics Agency (DLA), from the first point of Government
        acceptance or the storage point to the Army user (commonly referred to as
        second destination transportation); and
    •   transporting subsistence within the GWOT operating theaters.

The Office of the Deputy Chief of Staff for Logistics (Army G-4) is responsible for
developing funding requirements for the Army second destination transportation
program and for program management oversight.

DoD Supplemental and Cost of War Report
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 12,
chapter 23, “Contingency Operations,” September 2007, requires that the Defense
Finance and Accounting Service (DFAS) prepare and issue a monthly status report on the
amount DoD obligates in support of contingency operations. DFAS uses the Business
Enterprise Information System to compile cost data submitted by the DoD Components
and to produce the Cost of War report. The Cost of War report consolidates obligation
data submitted by the DoD Components about various GWOT operations and
appropriations. The report shows obligations incurred during the current month and


                                             1
year-to-date. For the Operation and Maintenance, Army (OMA) appropriation, the report
will not show obligation adjustments made to a prior year appropriation, and no
corrections are made to reports once they are finalized. DFAS provides the monthly Cost
of War report to the Office of the USD(C)/DoD CFO, which in turn provides the report to
Congress. 1

DoD Regulation 7000.14-R, chapter 23, describes a standard cost structure, referred to as
the Contingency Cost Breakdown Structure, for summarizing and reporting contingency
operation costs by categories. The cost categories facilitate the comparison of budget
estimates to actual costs incurred in executing GWOT operations. See Appendix C for a
description of the seven major cost categories and the six transportation cost
subcategories included in the Cost Breakdown Structure. The cost categories contained
in the Cost Breakdown Structure are the same as those used in the budget submissions.
DoD Components are required to develop measures for capturing actual costs from
accounting systems. If actual costs are not available, the DoD Components should
establish and document an auditable methodology for capturing data.

FY 2007 GWOT Reported Costs
For FY 2007, DoD reported obligations totaling $139.8 billion in support of GWOT,
including $8.7 billion for transportation. The Army reported obligations totaling
$98 billion, including $5.2 billion for transportation services paid by the OMA
appropriation. 2 The table shows the dollar value for DoD and Army GWOT
transportation obligation amounts reported on the Cost of War report as of September 30,
2007, by Subcategory.

                   GWOT Transportation Obligations as of September 30, 2007
                                       (in thousands)
      Cost Breakdown Structure                   DoD                                       Army
            Subcategories
4.1 Airlift                                            $3,195,655                                  $853,541
4.2 Sealift                                                         782,872                         665,673
4.3 Ready Reserve Force/Fast                                           5,000                               0
     Sealift Ship
4.4 Port Handling and Inland                                        739,638                         691,807
     Transportation
4.5 Other Transportation                                            957,235                          17,536
4.6 Second Destination Transportation                             2,990,206                        2,950,790
Total                                                            $8,670,606                       $5,179,347



1
  Effective October 2008, DoD replaced the Cost of War report with a Contingency Operations Status of
Funds report. The new report will provide DFAS with the ability to reflect obligation adjustments made to
a specific appropriation.
2
  The Army has reported that all costs for transportation services are not included in the transportation cost
category (Cost Breakdown Structure Category 4) on the Cost of War reports. Some transportation costs are
embedded in the contract price for materiel and other services and are included in other Cost Breakdown
Structure categories on the Cost of War reports.


                                                      2
Army Transportation Costs
The Office of the Assistant Secretary of the Army (Financial Management and
Comptroller), Army Budget Office, Budget Integration and Evaluation Division is
responsible for gathering, analyzing, and reporting GWOT costs incurred by the Army to
DFAS. The division used the Operational Data Store to identify many GWOT
obligations and disbursements reported by Army organizations, including all of those
related to transportation. Operational Data Store is a DFAS system used to process
information among entitlement, disbursing, and accounting systems. The Budget
Integration and Evaluation Division developed an automated program to crosswalk data
obtained from the Operational Data Store to the appropriate Cost Breakdown Structure
category on the Cost of War report. Within the Army, three organizations reported
incurring $5 billion of the total $5.2 billion in GWOT transportation obligations for
FY 2007.

The Office of Administrative Assistant to the Secretary of the Army, Executive Director,
Army Resources and Programs Agency is responsible for Operating Agency 22.
Operating Agency 22 provides resource management support for more than
200 organizations that perform a variety of readiness and operations support functions for
Headquarters, Department of the Army. This includes responsibility for programming,
budgeting, and funding second destination transportation. Within Operating Agency 22,
Resource Services Indianapolis 3 is responsible for monitoring and obligating funds based
on actual or estimated bills received from the U.S. Transportation Command
(USTRANSCOM) or commercial carriers paid through the U.S. Bank PowerTrack®
System. For FY 2007, Operating Agency 22 reported obligating $2.6 billion for
transportation services related to GWOT support.

U.S. Army Central (ARCENT) provides command and control for all Army forces
supporting GWOT operations. For FY 2007, ARCENT obligated OMA appropriation
funds totaling $19.8 billion for GWOT combat and support operations. This included
$1.3 billion for “overocean” 4 and “within theater” transportation of tactical units’
equipment and personnel.

The Army Budget Office, Military Personnel Division centrally manages the Military
Personnel, Army appropriation that funds soldiers’ pay and allowances and other related
personnel costs, including subsistence. In addition, the Military Personnel Division
received OMA appropriation funds to reimburse DLA for transporting subsistence within
the Iraq and Afghanistan operating theaters. For FY 2007, the Military Personnel
Division incurred obligations totaling $629.2 million to reimburse DLA for transporting
subsistence within the GWOT operating theaters.




3
  The Army transferred responsibility for monitoring and obligating second destination funds within
Operating Agency 22 from Resource Services Indianapolis to Resource Services Washington in May 2008.
4
  Overocean transportation is the movement of goods from a point of origin in the Continental U.S. to a
specified point overseas.


                                                   3
Criteria
Recording Obligations
DoD Regulation 7000.14-R, volume 3, chapter 15, “Receipt and Use of Budgetary
Resources - Execution Level,” states that obligations incurred are amounts of orders
placed, contracts awarded, services received, and similar transactions during an
accounting period that will require payment. Chapter 8, “Standards for Recording and
Reviewing Commitments and Obligations,” prescribes the basis for determining the
amount to record and the accounting period in which to record the obligations. DoD
Components are to obligate funds at the time they requisition items. The office that
incurs an obligation is responsible for providing the accounting office with documentary
evidence of the transaction. If personnel do not know the actual obligation amount at the
time they record it, they should thoroughly analyze the transaction and provide their best
estimate.

Fiscal Laws and Regulations
Federal agencies are required to spend appropriations within the time and amount
established by Congress. Under section 1502(a), title 31, United States Code
(31 U.S.C. 1502[a]), commonly referred to as the “Bona Fide Needs Rule,” an
appropriation is available to pay expenses incurred during the time that the appropriation
is available for obligation. According to 31 U.S.C. 1514(a), the head of each Executive
agency prescribes by regulation a system of administrative control to restrict obligations
or expenditures from each appropriation to the amount of the apportionments or
reapportionments of the appropriation. In addition, 31 U.S.C. 1517(a)(2), part of the law
commonly referred to as the Antideficiency Act, states that Government officials are
prohibited from making obligations or expenditures in excess of the amount permitted by
the agency regulation prescribed under 31 U.S.C. 1514(a). Furthermore,
31 U.S.C. 1517(b) requires the agency head to immediately report violations to the
President and Congress and to include all relevant facts and action taken.

DoD Regulation 7000.14-R, volume 14, “Administrative Control of Funds and
Antideficiency Act Violations,” establishes policy and procedures for administrative
control of funds. Chapter 2, “Violations of the Antideficiency Act,” requires that an
agency report a potential violation if an administrative subdivision of funds is exceeded.
Failure to record a valid obligation as of the date it was incurred does not avoid the
incurrence of a potential violation. Chapter 3, “Preliminary Reviews of Potential
Violations,” requires that the individual detecting a possible Antideficiency Act violation
report it within 10 working days. For the Army, potential violations are reported to the
Office of the Assistant Secretary of the Army (Financial Management and Comptroller),
which submits a report to the USD(C)/DoD CFO. DoD Components should initiate a
preliminary review of the potential violation usually within 90 days. DFAS Indianapolis
Regulation 37-1, “Finance and Accounting Policy Implementation,” May 2008, provides
guidance on budgetary and proprietary accounting, fund control, and financial reporting
in support of customers serviced by DFAS Indianapolis. Chapter 4, “Administrative




                                             4
Control of Appropriations and Financing of Requirements,” states that an over obligation
of funds caused by inaccurate estimates or failure to reserve enough funds for contingent
liabilities is an Antideficiency Act violation.

Review of Internal Controls
We identified material internal control weaknesses for the Office of the Administrative
Assistant to the Secretary of the Army as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. Operating
Agency 22 did not establish the necessary internal controls to ensure that GWOT
transportation costs were accurately recorded and reported and that reprogramming
requests were approved before funds were transferred. As a result, Operating Agency 22
understated transportation costs on the year-end FY 2007 Costs of War report by
$100.7 million and may have violated 31 U.S.C. 1517. In addition, Operating Agency 22
did not comply with the funds reprogramming request requirements in DoD Regulation
7000.14-R volume 3, chapter 6, “Reprogramming of DoD Appropriated Funds,” when
issuing FY 2007 OMA appropriation funds. Implementing Recommendations 1.a. and
1.c. will improve internal controls in Operating Agency 22. We identified internal
control weaknesses for ARCENT and Army Budget Office. ARCENT did not have the
necessary internal controls to ensure that it computed and recorded an accurate obligation
estimate for unbilled transportation costs at fiscal year’s end. Implementing
Recommendation 2. will improve ARCENT internal controls. Army Budget Office did
not have the necessary internal controls to ensure that it reported transportation costs
under the correct Cost Breakdown Structure category on the Cost of
War report. Implementing Recommendation 3. will improve Army Budget Office
internal controls. We will provide a copy of our report to the senior Army official
responsible for internal controls.




                                            5
6
Finding. Recording Transportation
Obligations
Army organizations did not accurately record and report FY 2007 transportation costs
incurred in support of Global War on Terror (GWOT). Specifically:

    •    Operating Agency 22 exceeded its FY 2007 Operation and Maintenance, Army
         appropriation approved funding by $100.7 million, potentially violating
         31 U.S.C. 1517 (a)(2); and
    •    the Army’s FY 2007 Cost of War report as of September 30, 2007, understated
         obligations incurred for transportation services by about $147.5 million and
         included about $1.1 billion of transportation costs under the wrong Cost
         Breakdown Structure category.

As a result, the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
(USD[C]/DoD CFO), Congress, and other report users were not provided a detailed
accounting of GWOT appropriated funds used for transportation services. Operating
Agency 22, in coordination with the Office of the Deputy Chief of Staff for Logistics
(Army G-4), should develop procedures for estimating the funding required by the
Defense Logistics Agency (DLA) for transporting subsistence and supplies overseas, and
report a potential Antideficiency Act violation as required by DoD Regulation
7000.14-R, volume 14, chapter 3. Operating Agency 22 should also ensure that funding
shortfalls are identified promptly and that requests for reprogramming authority are
approved before issuing funds. U.S. Army Central (ARCENT) should develop standard
operating procedures for estimating and recording obligations for transportation costs
incurred, but not yet billed, as of fiscal year’s end. In addition, Army Budget Office,
Military Pay Division should use the Army’s accounting costs crosswalk to validate the
transportation obligations included in its submission for the Cost of War report.

Operating Agency 22
Operating Agency 22 understated FY 2007 OMA appropriation obligations as of
September 30, 2007, for second destination transportation services by $100.7 million on
the Cost of War report. Resource Services Indianapolis did not record an accurate
estimated obligation for the transportation costs because it lacked current information on
second destination transportation shipments of DLA-managed items. As of
September 30, 2007, Operating Agency 22 had incurred obligations totaling
$100.7 million more than the $9.6 billion in OMA appropriation funds approved for
FY 2007. As a result, Operating Agency 22 may have incurred an Antideficiency Act
violation reportable under 31 U.S.C. 1517(b). In addition, Operating Agency 22 issued
Resource Services Indianapolis funding authority appropriated as Budget Activity 5 01,


5
  Budget Activities are categories within each appropriation that identify the purpose or types of activity
financed by the appropriation. Each Budget Activity is further divided into Subactivity Groups.


                                                      7
“Operating Forces,” rather than Budget Activity 04, “Administrative and Service-wide
Activities,” for the purpose of funding second destination transportation without the
approved reprogramming authority.

Transportation Obligation Procedures for DLA Shipments
Before FY 2007, Resource Services Indianapolis issued DLA Military Interdepartmental
Purchase Requests to provide monthly funding for the estimated port handling and
overocean transportation costs chargeable to the Army. The Military Interdepartmental
Purchase Requests provided supporting documentation for recording monthly obligation
estimates in the Army accounting records before DLA billed for the transportation
services. U.S. Transportation Command (USTRANSCOM) billed DLA monthly for the
total transportation charges based on bills received from its shipping activities. DLA then
computed the transportation costs chargeable to the Army and other DoD Components
and prepared separate bills for the Army and other DoD Components. When preparing
the Standard Form 1080, “Voucher for Transfers Between Appropriations and/or Funds,”
DLA cited the fiscal year’s funds as of the billing date.

Starting in FY 2007, USTRANSCOM began billing the DoD Components directly for the
transportation costs associated with the DLA “forward stocked” subsistence and
supplies. 6 Resource Services Indianapolis calculated the monthly funding estimates for
transportation services on the Military Interdepartmental Purchase Requests based on
historical obligation and disbursement data. The Military Interdepartmental Purchase
Requests provided supporting documentation for recording monthly obligation estimates
in the accounting records before USTRANSCOM provided the transportation services.
USTRANSCOM received monthly billings from its subordinate shipping activities and
sent Standard Forms 1080, citing the accounting classification on the Military
Interdepartmental Purchase Request, to Resource Services Indianapolis. Resource
Services Indianapolis then certified and processed the vouchers for payment, reducing the
monthly estimated obligation amount previously recorded based on the Military
Interdepartmental Purchase Request. USTRANSCOM used different billing procedures
than DLA used. USTRANSCOM billed for transportation services based on the
shipment date rather than the date billed as DLA had done.

Accounting for FY 2007 Transportation Costs of DLA Shipments
Resource Services Indianapolis significantly underestimated obligations at the end of
FY 2007 for unbilled second destination transportation costs for DLA-managed
subsistence and supplies. As of September 30, 2007, Resource Services Indianapolis
provided USTRANSCOM about $778 million in FY 2007 OMA appropriation funds on
Military Interdepartmental Purchase Requests. Based on the Military Interdepartmental
Purchase Requests, the Army obligated the $778 million in FY 2007 OMA appropriation


6
  DLA “forward stocked” or pre-positioned subsistence and supplies are located at storage sites in the
operating theaters. DLA owned and managed the items until requisitioned and issued for later issue to
other DoD Components. The DoD Components paid the second destination transportation costs based on
the percentage of subsistence and supplies requisitioned by each DoD Component.



                                                   8
funds. Because of the time delay between the shipment date and the date billed by
USTRANSCOM, the historical obligation and disbursement information was no longer
an accurate basis for estimating the current month’s transportation services chargeable to
the Army. As a result, Resource Services Indianapolis did not include sufficient funding
on the final FY 2007 Military Interdepartmental Purchase Request for transportation
costs incurred, but not billed by USTRANSCOM, as of September 30, 2007. In
October 2007, USTRANSCOM submitted a Standard Form 1080 for second destination
transportation charges totaling $27.7 million that cited the Army’s FY 2007 OMA
appropriation funds for transportation services provided during FY 2007. Because the
billed amount exceeded available FY 2007 funds, Resource Services Indianapolis
charged the transportation costs to FY 2008 OMA appropriation funds. Resource
Services Indianapolis also instructed USTRANSCOM to cite FY 2008 funds on the
Standard Form 1080 vouchers submitted for any remaining FY 2007 transportation
charges. As of May 7, 2008, Resource Services Indianapolis disbursed $100.2 million of
FY 2008 OMA appropriation funds for transportation costs incurred in FY 2007.

From March through July 2008, we continued to monitor and ask about the status of
Operating Agency 22’s FY 2007 OMA appropriation funds. By June 30, 2008, Army
operating agencies had reported de-obligating $544.1 million of FY 2007 OMA
appropriated funds. On July 15, 2008, the Army Budget Office used a portion of the
de-obligated funds to issue a Funding Authorization Document transferring an additional
$100.2 million of FY 2007 OMA appropriation funds to Operating Agency 22, increasing
its total FY 2007 funding to $9.7 billion. In addition, Operating Agency 22 had
de-obligated $0.5 million of FY 2007 OMA appropriation funds after September 30,
2007, and these funds were available to expend for obligations incurred in FY 2007 for
the USTRANSCOM transportation charges. On July 18, 2008, Operating Agency 22
transferred the $100.7 million of USTRANSCOM transportation charges that had been
erroneously applied to the FY 2008 OMA appropriation to FY 2007 OMA appropriation.

Potential Antideficiency Act Violation
Operating Agency 22 potentially violated 31 U.S.C. 1517(a)(2) by incurring as of
September 30, 2007, $100.7 million in obligations in the FY 2007 OMA appropriation
that exceeded the amount authorized by the Funding Authorization Document, a formal
administrative subdivision of an apportionment or reapportionment of an appropriation as
defined under 31 U.S.C. 1514(a). Resource Services Indianapolis needed better
procedures for computing the funding required for DLA shipments of subsistence and
supplies. Those written procedures should require the accurate recording of obligations
regardless of whether the funding was available at either Resource Services Indianapolis
or Operating Agency 22. Operating Agency 22 should report a potential violation as
prescribed in DoD Regulation 7000.14-R, volume 14, chapter 3. In addition, Operating
Agency 22 potentially violated 31 U.S.C. 1502(a) by obligating and expending
$100.7 million of FY 2008 OMA appropriation funds for transportation costs incurred in
FY 2007. However, Operating Agency 22 corrected this potential violation on July 18,
2008, by transferring the $100.7 million erroneously charged to the FY 2008 OMA
appropriation to the FY 2007 OMA appropriation.



                                            9
Army Budget Office issued Operating Agency 22 a Funding Authorization Document
authorizing FY 2007 OMA appropriation funds totaling $9.6 billion. The Funding
Authorization Document stated that authorizing or incurring obligations in excess of the
cumulative allocation amount is a violation of 31 U.S.C. 1517 and is reportable under
DFAS Indianapolis Regulation 37-1. Operating Agency 22 issued Resource Services
Indianapolis a $2.6 million funding authorization target in the FY 2007 OMA
appropriation. Exceeding a funding authorization target is not an Antideficiency Act
violation. However, Resource Services Indianapolis personnel could be responsible for
an Antideficiency Act violation if the governing formal subdivision of funds is exceeded.

As of September 30, 2007, accounting reports showed that Resource Services
Indianapolis had obligated 100 percent of its $2.6 million FY 2007 OMA appropriation
funding target, and Operating Agency 22 had obligated 100 percent of its $9.6 billion
FY 2007 OMA appropriation funding authorization. By understating second destination
transportation obligations by $100.7 million as of September 30, 2007, Resource Services
Indianapolis exceeded its $2.6 billion FY 2007 funding target and Operating Agency 22
exceeded its overall $9.6 billion FY 2007 OMA appropriation funding authority,
potentially violating 31 U.S.C. 1517(a)(2). By transferring the $100.7 million
erroneously charged to the FY 2008 OMA appropriation to the FY 2007 OMA
appropriation, Operating Agency 22 corrected a potential violation of 31 U.S.C. 1502(a).
However, the Funding Authorization Document issued to Operating Agency 22 was a
formal administrative subdivision of an apportionment or reapportionment of an
appropriation as defined under 31 U.S.C. 1514(a). Exceeding the formal administrative
subdivision is a potential violation of 31 U.S.C. 1517(a)(2).

The Executive Director, Army Resources and Programs Agency; in coordination with the
Office of the Deputy Assistant Secretary of Army for Logistics (Army G-4) and with
assistance from DLA and USTRANSCOM; needs to develop written procedures for
computing the funding required for DLA shipments of subsistence and supplies. These
procedures should also ensure that Operating Agency 22 includes sufficient funds on the
final fiscal year-end Military Interdepartmental Purchase Request for the estimated
transportation costs that Army incurred, but USTRANSCOM had not yet billed. In
addition, Operating Agency 22 should report a potential Antideficiency Act violation in
the FY 2007 OMA appropriation as prescribed in DoD Regulation 7000.14-R,
volume 14, chapter 3.

Reprogramming
Operating Agency 22 did not comply with requirements of DoD Regulation 7000.14-R
volume 3, chapter 6, when issuing FY 2007 OMA appropriation funds, Budget
Activity 01 to Resource Services Indianapolis for the purpose of funding second
destination transportation. Chapter 6 establishes the policies and provides guidance for
requesting reprogramming authority to transfer funds between appropriations or
subdivisions within an appropriation. DoD Components are required to submit a
reprogramming action request to the Office of the USD(C)/DoD CFO for review and
approval before submission to the congressional committees. Chapter 6 contains dollar



                                            10
thresholds for reprogramming actions requiring written congressional committee
approval, which has been agreed on by the committees and DoD, including increases of
$15 million or more in an OMA appropriation Budget Activity.

Of the $2.6 billion in funding authority that Operating Agency 22 issued Resource
Services Indianapolis for FY 2007, $1.9 billion was designated as Subactivity Group 421,
“Service-wide Transportation.” 7 Subactivity Group 421 is a part of Budget Activity 04,
“Administration and Service-wide Activities.” These funds were budgeted and
appropriated for the purpose of financing Service-wide second destination transportation.
Because of a shortfall in available Subactivity Group 421 funds to meet GWOT second
destination transportation requirements, Operating Agency 22 issued Resource Services
Indianapolis an additional $663 million designated as Subactivity Group 135, “Additional
Activities,” which is a part of Budget Activity 01, “Operating Forces.” These funds were
budgeted and appropriated for the purpose of financing transportation for deploying,
sustaining, and redeploying unit’s equipment and supplies. The FY 2007 Supplemental
Budget showed $2.4 billion for second destination transportation in Subactivity Group
421, Budget Activity 04. Because Subactivity Group 421, Budget Activity 04 funds are
designated specifically for Service-wide second destination transportation, Operating
Agency 22 violated the requirements of DoD Regulation 7000.14-R volume 3, chapter 6,
when it issued $663 million of Budget Activity 01, Subactivity Group 135 funds to
Resource Services Indianapolis for financing Service-wide second destination
transportation without prior reprogramming approval from Congress.

Issuing and obligating the $663 million of Subactivity Group 135 funds for second
destination transportation also caused the Army to report obligations under the wrong
Cost Breakdown Structure code on the Cost of War report. The accounting crosswalk
used by the Army Budget Office, Budget Integration and Evaluation Division to transfer
cost data from the Operational Data Store to the Cost of War report uses the Subactivity
Group and Element of Resource 8 as factors to determine the Cost Breakdown Structure
category. If Subactivity Group 421 funds are used, costs are reported under
Subcategory 4.6, second destination transportation. If Subactivity Group 135 funds are
used, the Element of Resource code will determine under which Cost Breakdown
Structure code the costs will be reported. The Cost of War report reported the
$663 million in transportation costs in a subcategory other than Subcategory 4.6.
Operating Agency 22 should implement procedures to ensure that funding shortfalls are
identified promptly and reprogramming requests are submitted and approved before
OMA appropriation funds are transferred or used for purposes other than those for which
the funds were intended.


7
  Funding Authorization Documents issued by Army Budget Office identify funds by the Subactivity
Group. The amounts specified are taken from the OMA appropriation budget authorized by the
congressional committees. The Subactivity Group amounts allocated by the Army Budget Office are not
formal administrative subdivisions of funds under 31 U.S.C. 1514(a). However, the Funding Authorization
Documents did state that exceeding the cumulative amount allocated is a reportable violation of 31 U.S.C.
1517.
8
  The Element of Resource is a four-digit code that identifies the type or resource employed or consumed.



                                                   11
ARCENT
ARCENT did not accurately report FY 2007 transportation costs incurred in support of
GWOT. ARCENT received and obligated $19.4 billion in FY 2007 OMA funds to
support GWOT operations. Of this amount, ARCENT obligated $944.6 million for
transporting equipment, supplies, and personnel. Generally, ARCENT obligated funds
based on bills received from the transportation providers. Because of normal delays in
receiving transportation bills, ARCENT did not process some bills for transportation
services requested near fiscal year’s end until the following fiscal year. Therefore,
ARCENT recorded an estimated obligation. However, ARCENT did not record an
accurate obligation estimate for unbilled transportation costs at the end of FY 2007.

ARCENT did not have written procedures for estimating transportation costs incurred,
but not yet billed, as of September 30, 2007. In addition, ARCENT personnel stated that
they lacked current information on actual FY 2007 OMA appropriation obligations for
supply transactions because problems in the Fund Control Module System 9 resulted in
duplicate obligations for supply requisitions. Because of the lack of written procedures
and known system problems, ARCENT personnel did not attempt to compute and record
an accurate obligation estimate for unbilled transportation costs. Rather, ARCENT
personnel obligated the total remaining FY 2007 OMA appropriation funds and
anticipated that, after de-obligating the duplicate obligations for supply transactions,
sufficient funds would be available to obligate the FY 2007 unbilled transportation costs.
As of May 2008, ARCENT personnel researched and identified duplicate obligations
recorded in FY 2007 totaling more than $170 million. However, after correcting the
duplicate obligations, ARCENT personnel still had to record an obligation for the
transportation costs chargeable to FY 2007. By May 2008, ARCENT personnel had
obligated an additional $46.8 million of FY 2007 OMA appropriation funds for FY 2007
transportation bills received after September 30, 2007. As a result, the September 30,
2007, Cost of War report understated FY 2007 transportation costs by at least
$46.8 million.

ARCENT should develop standard operating procedures that outline the process for
estimating and recording the obligation amount for transportation costs incurred, but not
yet billed, as of fiscal year’s end. To address the problems with the Fund Control Module
System, the Office of the Assistant Secretary of the Army (Financial Management and
Comptroller) requested that the U.S. Army Audit Agency evaluate the process for
obligating funds for supply transactions using the Fund Control Module System. The
U.S. Army Audit Agency issued its report in September 2008.




9
 The Fund Control Module System is a business process improvement to simplify the obligation process
and to ensure that the Standard Army Retail Supply System and the Standard Finance System have the
same information regarding funds available for obligation. ARCENT implemented the Fund Control
Module System in July 2007.


                                                  12
Army Budget Office
The Army Budget Office, Military Pay Division reported costs for within theater
transportation under the wrong Cost Breakdown Structure category on the Cost of War
report. For FY 2007, the Army reimbursed DLA $629.2 million for transporting within
theater subsistence to Army organizations using funds appropriated under Subactivity
Group 135, “Additional Activities.” The accounting crosswalk program developed by
the Army Budget Office, Budget Integration and Evaluation Division to transfer cost data
taken from the Operational Data Store to the Cost of War report aligned transportation
costs funded by Subactivity Group 135 primarily into two Cost Breakdown Structure
Subcategories: 4.4 Port Handling and Inland Transportation and 4.5 Other
Transportation. The crosswalk identified all transportations costs funded using
Subactivity Group 421, “Service-wide Transportation,” to Subcategory 4.6 Second
Destination Transportation.

During FY 2007, when validating the cost data received from the Budget Integration and
Evaluation Division, the Military Pay Division used an incomplete crosswalk reference
guide and changed $629.2 million of transportation costs from Subcategories 4.1 through
4.5 to Subcategory 4.6. The Budget Integration and Evaluation Division identified some
of the changes made by the Military Pay Division and reclassified $229 million as
Subcategory 4.4 on the Cost of War report submitted to DFAS Indianapolis. However,
the Budget Integration and Evaluation Division did not find and correct all of the changes
made by the Military Pay Division. As a result, the Cost of War report inaccurately
reported $400.2 million of within theater transportation costs under Cost Breakdown
Structure Subcategory 4.6. Because the Military Pay Division used Subactivity Group
135 rather than Subactivity Group 421 funds to reimburse DLA for within theater
transportation costs, the $400.2 million should not have been classified and reported
under Subcategory 4.6. In addition, ARCENT used Subactivity Group 135 for within
theater transportation of equipment and supplies and reported the costs under
Subcategory 4.4. To ensure consistency in the reporting of transportation costs on the
Cost of War report, the Military Pay Division should use the Army accounting crosswalk
developed by the Budget Integration and Evaluation Division to validate the cost data
included on its Cost of War submission.

Conclusion
The Army should improve its controls and procedures for reporting transportation costs
incurred for GWOT support. Although the Army Budget Office, Budget Integration and
Evaluation Division had implemented standard procedures for recording, classifying, and
reporting GWOT transportation costs, some reporting organizations did not report all
transportation costs in the fiscal year’s end Cost of War report submission or included
costs under the wrong Cost Breakdown Structure category. Operating Agency 22 neither
recorded estimated obligations to cover the $100.7 million in second destination
transportation costs that the Army incurred as of September 30, 2007, nor requested
reprogramming authority through the Army Budget Office before using Budget
Activity 01 designated funds for Service-wide second destination transportation costs.
The Executive Director, Army Resources and Programs Agency should report a potential
Antideficiency Act violation under 31 U.S.C. 1517(b) in the FY 2007 OMA


                                           13
appropriation and develop procedures to ensure that reprogramming requests are
submitted and approved before funds are used for purposes other than those for which the
funds were intended. ARCENT under reported FY 2007 transportation costs by about
$46.8 million as of September 30, 2007, and should develop procedures for estimating
and reporting transportation costs incurred, but not billed, at fiscal year’s end. In total,
the Army’s FY 2007 Cost of War report as of September 30, 2007, understated
obligations by $147.5 million and included about $1.1 billion of transportation costs
under the wrong Cost Breakdown Structure category ($663 million in Operating
Agency 22 and $400.2 million in the Military Pay Division). The Military Pay Division
should use the same accounting crosswalk developed by the Budget Integration and
Evaluation Division to validate the cost data included in the Cost of War report.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Executive Director, Army Resources and Programs
Agency:

        a. Develop, in coordination with the Office of the Deputy Chief of Staff for
Logistics (Army G-4) and with assistance from the Defense Logistics Agency and
U.S. Transportation Command, procedures for computing the funding required for
Defense Logistics Agency’s shipments of subsistence and supplies. The procedures
should ensure that Operating Agency 22 includes sufficient funds for transportation
costs incurred, but not billed, on the final fiscal year’s end Military
Interdepartmental Purchase Request issued to the U.S. Transportation Command.

Army Comments
The Administrative Assistant to the Secretary of the Army agreed and stated that the
Director, Resource Services Washington, Resources and Programs Agency has worked
with the Office of the Deputy Chief of Staff for Logistics (Army G-4), with assistance
from DLA and USTRANSCOM, to do the following to improve procedures for
computing funding requirements.

   •   USTRANSCOM created a new Web site for billing to shorten the time between
       the date of transportation and the date services are billed to the Army.
   •   Representatives from Resource Services Washington, Army G-4, DLA,
       USTRANSCOM, and the other Military Services meet quarterly to focus on
       estimating funding requirements for DLA overocean transportation.
   •   Resource Services Washington, Army G-4, and DLA use internal metrics to
       forecast funding increases based on mission requirements driven by troop surges,
       U.S. Army Materiel Command fuel rates, port handling rates, liner charges, and
       any emerging requirements.
   •   Resource Services Washington provides sufficient funds to USTRANSCOM for
       all forecasted requirements and costs incurred. Funds are conveyed by Military
       Interdepartmental Purchase Requests throughout the fiscal year.


                                            14
Our Response

The Administrative Assistant to the Secretary of the Army comments are responsive and
meet the intent of the recommendation. No further comments are required.

      b. Report a potential Antideficiency Act violation in the FY 2007 Operation
and Maintenance, Army appropriation as prescribed in DoD Financial Management
Regulation, volume 14.

Army Comments
The Administrative Assistant to the Secretary of the Army agreed and stated that
Resource Services Washington submitted a flash report of a potential violation on
December 19, 2008.

Our Response
The Administrative Assistant to the Secretary of the Army comments are responsive. No
further comments are required.

       c. Implement procedures to ensure funding shortfalls are identified
promptly and requests to reprogram funds between Budget Activities within the
Operation and Maintenance, Army appropriation are submitted and approved
before the funds are reprogrammed or used.

Army Comments

The Administrative Assistant to the Secretary of the Army agreed and stated that
Resource Services Washington and Army G-4 perform a monthly reconciliation of
requirements and execution to ensure that funding levels are sufficient. Resource
Services Washington is complying with the reprogramming of funds requirements in
DoD 7000.14-R, volume 3, chapter 6.

Our Response
The Administrative Assistant to the Secretary of the Army comments are responsive and
meet the intent of the recommendation. No further comments are required.

2. We recommend that the Commander, U.S. Army Central develop and implement
standard operating procedures for computing and recording an estimated
obligation amount for transportation costs incurred, but not billed, at fiscal year’s
end.




                                           15
Army Comments

The Commander, ARCENT disagreed and stated that ARCENT personnel did not record
an estimated obligation for unbilled transportation costs because they did not know the
actual costs until the bills were received from USTRANSCOM. A system is not
available to estimate unbilled transportation costs and use of historical averages is
inappropriate because of anomalies, such as incorrect bills by USTRANSCOM and the
troop surge in March 2007. He also stated that USTRANSCOM should use an on-line
system similar to PowerTrack® to list bills as they occur so users would have a way to
estimate the amount of unbilled transportation costs.

Our Response

The ARCENT comments are not responsive. ARCENT is responsible for limiting the
obligation and expenditure of funds to the amount provided in the approved Funding
Authorization Document. If the actual obligation amount is not known at fiscal year-end,
ARCENT personnel should thoroughly analyze available information and provide their
best estimate. If not for the de-obligation of duplicate obligations for supply transactions
after FY 2007 year-end, ARCENT would have exceeded its authorized funding
allowance target for FY 2007. The fact that existing transportation billing systems and
processes prevent real-time billing of transportation costs by USTRANSCOM does not
negate ARCENT responsibility for recording a best-estimate obligation for unbilled costs
at fiscal year-end. Two different offices (G-4 and G-8) within ARCENT are responsible
for coordinating transportation requests from subordinate units in support of contingency
operations and for processing and approving USTRANSCOM bills and recording
transportation obligations. ARCENT G-8, in coordination with ARCENT G-4 and
USTRANSCOM, should develop procedures for estimating obligations for unbilled
transportation costs based on historical data and trends and known and forecasted
transportation requirements for movements of unit equipment and personnel. We request
that the Commander, U.S. Army Central reconsider his position and provide comments
on the final report by April 13, 2009.

3. We recommend that the Director, Army Budget Office require the Military Pay
Division to revise procedures and use the same accounting crosswalk developed by
the Budget Integration and Evaluation Division to validate and report the
transportation cost data for the Cost of War report.

Army Comments
The Director, Management and Control, Army Budget Office agreed and stated that the
division responsible for reporting on transportation of in-theater subsistence provided by
DLA vendors used an outdated accounting crosswalk during FY 2007. He also stated
that the issue was rectified, and the Army Budget Office continues to the use the correct
crosswalk for Cost of War reporting.




                                            16
Our Response
The Army Budget Office comments are responsive and meet the intent of the
recommendation. No further comments are required.




                                         17
18
Appendix A. Scope and Methodology
We conducted this performance audit from January through October 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated DFAS and Army procedures and controls over the reporting of FY 2007
transportation costs related to GWOT. We reviewed guidance and interviewed DFAS
Indianapolis personnel who compile the data received from DoD organizations and
prepare the DoD Cost of War report. Specifically, we evaluated the procedures for
compiling and reporting the obligation data for the Cost of War report. We reviewed
standing operating procedures and interviewed personnel in Operating Agency 22,
ARCENT, Army Budget Office, and the Office of the Deputy Chief of Staff for Logistics
(Army G-4) to determine the processes used to record, classify, and report Cost of War
data. We also interviewed DLA and USTRANSCOM personnel to determine procedures
for billing transportation costs to the Army. We analyzed and compared transportation
obligation data reported in the Army Standard Finance System accounting reports to the
data submitted to DFAS Indianapolis for consolidation into the DoD Cost of War report.
We compared FY 2007 obligation data reported in the accounting reports as of
September 30, 2007, and March 31, 2008, to identify costs not included in the year-end
FY 2007 Cost of War report.

Use of Computer-Processed Data
We used computer-processed data initially recorded in the Standard Financial System, the
Army’s installation-level accounting system, and reported through the Operational Data
Store and the Business Enterprise Information System to perform this audit. We did not
test the general and application controls in the systems and did not make any conclusion
about the reliability of the data. We did limited testing to verify that the obligation data
recorded in the Standard Financial System and reported through the Operational Data
Store and Business Enterprise Information System, were accurately recorded and
summarized on the Cost of War report. As discussed in the finding, the accounting
records used to compile the Cost of War report contained incomplete and inaccurate
obligation data. However, we did not find errors that would preclude the use of the
computer-processed data to the meet the audit objective or that would change the
conclusion in the report.




                                            19
20
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the U.S. Army Audit Agency (AAA) have
issued 16 reports discussing transportation and GWOT cost reporting. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports. AAA reports are restricted
to military domains and GAO. They can be accessed at
https://www.aaa.army.mil/reports.htm.

GAO
GAO Report 08-423R, “Global War on Terrorism: Reported Obligations for the
Department of Defense,” January 30, 2008

GAO Report No. 08-143R, “Operation Iraqi Freedom: DoD Assessment of Iraqi Security
Forces’ Units as Independent Not Clear Because ISF Support Capabilities are Not Fully
Developed,” November 30, 2007

GAO Report No. 08-68, “Global War on Terrorism: DoD Needs to Take Action To
Encourage Fiscal Discipline and Optimize the Use of Tools Intended to Improve GWOT
Cost Reporting,” November 2007

GAO Report No. 07-1056R, “Global War on Terrorism: Reported Obligations for the
Department of Defense,” July 26, 2007

GAO Report No. 07-675R, “Defense Transportation: DoD Has Taken Actions to
Incorporate Lessons Learned in Transforming Its Freight Distribution System,” May 8,
2007

GAO Report No. 07-671, “Defense Transportation: DoD Needs a Comprehensive
Approach to Planning for Implementing Its New Personal Property Program,” May 2007

GAO Report No. 07-631, “Defense Budget: Trends in Operation and Maintenance Costs
and Support Service Contracts,” May 2007

GAO Report No. 05-882, “Global War on Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Data to Control Costs,” September 2005

GAO Report No. 05-767, “Global War on Terrorism: DoD Should Consider All Funds
Requested for the War When Determining Needs and Covering Expenses,”
September 2005

GAO Report No. 04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding and
Reported Obligations in Support of the Global War on Terrorism,” May 2004




                                           21
DoD IG
Report No. D-2008-059, “Supplemental Funds Used for Medical Support for the Global
War on Terrorism,” March 6, 2008

Report No. D-2008-027, “Air Force Use of Global War on Terrorism Supplemental
Funding Provided for Procurement and Research, Development, Test, and Evaluation,”
November 21, 2007

AAA
Report No. A-2008-0267-FFM, “Funds Control Module,” September 24, 2008

Report No. A-2008-0037-FFM, “Military Personnel, Army FY 05 Subsistence Charges,”
February 12, 2008

Report No. A-2008-0010-ALL, “Followup Audit of Internal Controls Over Cargo
Container Payments, Military Surface Deployment and Distribution Command,”
November 2, 2007

Report No. A-2007-0186-ALR, “Funding Distribution Process Owner Initiatives: United
States Transportation Command,” August 10, 2007


.




                                         22
Appendix C. Cost Breakdown Structure
Cost Categories
As of September 30, 2007, DoD reported total funds obligated of $139.8 billion in
support of GWOT. The DoD Regulation 7000.14-R, volume 12, chapter 23 establishes
common cost categories for comparison on the Cost of War report called the Cost
Breakdown Structure. The following are the seven main categories of the Cost
Breakdown Structure on the Cost of War report.

   •   1.0 Personnel Costs include incremental pay and allowances of DoD military and
       civilians participating in or supporting a contingency operation.
   •   2.0 Personnel Support Costs include materials and services required to support
       Active and Reserve Component personnel and DoD civilian personnel engaged in
       the contingency operation.
   •   3.0 Operating Support Costs include is the incremental costs of materiel and
       services used to conduct or support an operation including contract services.
   •   4.0 Transportation Costs include transportation costs associated with supporting
       the contingency operation, including contract services, for all phases of the
       operation (to include deployment, sustainment, and redeployment).
   •   5.0 Working Capital Fund Support Costs include costs associated with supporting
       the contingency operation accepted by Defense Working Capital Fund
       organizations for contingency operations.
   •   6.0 Investment Costs include costs associated with supporting the contingency
       operation, appropriately financed in the Procurement; Research Development,
       Test, and Evaluation; and Military Construction appropriations for projects in
       support of contingency operations.
   •   7.0 Other Support Costs include various departmental programs designed to
       reimburse coalition countries for logistical and military support, provide lift to
       and to sustain coalition partners during military operations, train and equip the
       Afghan National Army and Armed Forces of Iraq, and execute the Commander’s
       Emergency Response Program.

DoD and Army Transportation Cost Breakdown
Subcategories
Transportation costs reported by the DoD as of September 30, 2007, were $8.7 billion.
The transportation Cost Breakdown Structure is further divided into six subcategories.

   •   4.1 Airlift Costs include transporting personnel, equipment, and materiel either
       by commercial or military air transportation vehicles.
   •   4.2 Sealift Costs include transporting personnel, equipment, and materiel by sea
       using commercial or active duty naval ships.




                                           23
•   4.3 Ready Reserve Force/Fast Sealift Ship includes transporting personnel,
    equipment, and materiel by sea using ready reserve forces or fast sealift ship. It
    includes the cost to activate or deactivate and to make vessels ready for use in
    contingency operations.
•   4.4 Port Handling/Inland Transportation Costs include port handling costs and
    transportation of personnel, equipment, and material by land. It also includes any
    contracted services to support port handling or inland transportation. Further, it
    includes transportation between peacetime operating locations (home station) and
    ports and transportation between ports and the area of operation during
    deployment, sustainment, and redeployment.
•   4.5 Other Transportation Costs include transportation costs not included as airlift,
    sealift, ready reserve forces, or port handling/inland transportation.
•   4.6 Second Destination Transportation includes the cost of delivery of end items
    to a location in support of a contingency operation. It also includes DLA second
    destination costs.




                                         24
Department of the Army Comments




                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
Click to add JPEG file




               28
Click to add JPEG file




               29
30
